N*

CERTIFICATE OF SERVICE
I certify that I sent a true and correct copy of this Rule 44 Petition for Rehearing by
United States mail to the following:
Clerk of the Court
Attn: Jeffrey Adkins
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Solicitor General of the United States
Room 5616, Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

Schuchat, Cook and Werner
Attn: George O. Suggs
555 Washington Avenue, Suite 520
St. Louis, MO 63101
This 7th day of July, 2021
Signed:

> *sr

/

/

Supremecourt No-reply
. Supreme Court Submission
Yahoo/Inbox
no-reply@supremecoxirt.gov
To :lawscan2001 @yahoo.com
Thu, May 20 at 4:00 PM
Thank you for your submission, it has been received and should it require any other
information we will contact you at this e-mail address. - U.S. Supreme Court Webmaster

Supreme Court Contact Page
Contact Us
General Contact Information:
U.S. Mail:
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Telephone: 202-479-3000
TTY: 202-479-3472
(Available M-F 9 a.m. to 5 p.m. eastern)

For technical questions or to report problems with this website,
email: Webmaster
For time sensitive or urgent questions please contact the Public Information Office at the
following number: 202-479-3211, Reporters press 1. The Supreme Court does not have a
public comment phone line.For general questions that are not time sensitive, email:
Public Information Office

|

Contact the Public Information Office by U.S. Mail:
Public Information Officer
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Other Helpful Telephone Numbers
Clerk's Office: 202-479-3011
Visitor Information Line: 202-479-3030
Opinion Announcements: 202-479-3360

I

i

